APPENDIX TABLE OF CONTENTS
Opinion of the Court of Criminal Appeals,
State of Oklahoma (April 1, 2021) ........................... 1a
District Court of Okmulgee County, State of
Oklahoma, Findings of Fact and Conclusions of
Law (December 8, 2020) ......................................... 12a
Court of Criminal Appeals, State of Oklahoma,
Order Remanding for Evidentiary Hearing
(November 24, 2020) ............................................... 15a

App.1a
OPINION OF THE COURT OF CRIMINAL
APPEALS, STATE OF OKLAHOMA
(APRIL 1, 2021)
IN THE COURT OF CRIMINAL APPEALS
OF THE STATE OF OKLAHOMA
________________________
RYAN CORTLAN JOHNSON,
Appellant,
v.
THE STATE OF OKLAHOMA,
Appellee.
________________________
No. F-2020-208
An Appeal from the District Court of Okmulgee
County, the Honorable Pandee Ramirez,
District Judge
Before: Dana KUEHN, Presiding Judge.,
Scott ROWLAND, Vice Presiding Judge.,
Gary L. LUMPKIN, Judge., David B. LEWIS, Judge.,
Robert L. HUDSON, Judge.
OPINION REMANDING
WITH INSTRUCTIONS TO DISMISS
KUEHN, PRESIDING JUDGE:
Ryan Cortland Johnson was tried by jury and
convicted of Murder in the First Degree in the District

App.2a
Court of Okmulgee County, Case No. CF-2017-316.
In accordance with the jury’s recommendation the
Honorable Kenneth E. Adair sentenced Appellant to
life imprisonment. Appellant must serve 85% of his
sentence before becoming eligible for parole. Appellant
appeals from this conviction and sentence.
Appellant filed a Motion for Supplementation of
the Record and Request to Remand for Evidentiary
Hearing, challenging the State’s subject-matter jurisdiction pursuant to the Supreme Court’s decision in
McGirt v. Oklahoma, 591 U.S. ___, 140 S.Ct. 2452
(2020). Appellant claims in Proposition I that he is
an enrolled member of the Chickasaw Nation and
that the crimes were committed on Creek Nation tribal
land. The State filed a motion to stay briefing until
Appellant’s motion was resolved. This Court granted
the motions and remanded the case for an evidentiary hearing in the District Court of Okmulgee County.
This Court noted in the Order that no evidentiary
hearing would be necessary if the parties entered
into a written stipulation setting forth those facts
upon which they agree and which answer the questions
presented, and provided the stipulation to the District
Court.
On December 7, 2020, the parties filed in the
District Court a motion, Stipulations and Joint Motion
to Strike Evidentiary Hearing. The parties stipulated
that the crime occurred at 3415 Cincinnati Ave. in
Beggs, and that the location is within the boundaries of
the Muscogee (Creek) Nation Reservation. The parties
further stipulated that Appellant has some Chickasaw
blood and is an enrolled member of the Chickasaw
Nation, that the Chickasaw Nation is a federally recognized Indian tribe, and that Appellant was enrolled

App.3a
no later than June 6, 2008. The District Court accepted
these stipulations.
On December 9, 2020, the District Court issued
its Findings of Fact and Conclusions of Law; these
were filed with this Court on December 14, 2020. Based
on the parties’ stipulations, the District Court found
the following facts: that Appellant has some Indian
blood and has been a member of the Chickasaw Nation
since June 6, 2008; that the Chickasaw Nation is a
federally recognized tribe; and that Appellant committed the crime within Okmulgee County, which is
entirely within the boundaries of the Muscogee (Creek)
Reservation. The record supports these findings.
Based on these findings of fact, the District Court
made the following conclusions of law:
1)

Pursuant to McGirt, Appellant is an Indian
for purposes of federal criminal jurisdiction.

2)

The crime occurred within the boundaries of
the Creek Reservation.

We adopt these conclusions of law. Appellant is
a member of the Chickasaw Nation, and the crime
was committed within the boundaries of the Muscogee
(Creek) Nation Reservation. The ruling in McGirt
applies to this case. The District Court of Okmulgee
County did not have jurisdiction to try Appellant.
Accordingly, Proposition 1 is granted. The remaining propositions are moot.
DECISION
The Judgment and Sentence of the District Court
of Okmulgee County is VACATED and REMANDED
with instructions to DISMISS. Pursuant to Rule

App.4a
3.15, Rules of the Oklahoma Court of Criminal Appeals,
Title 22, Ch.18, App. (2021), the MANDATE is
STAYED for twenty (20) days from the delivery and
filing of this decision.
AN APPEAL FROM THE DISTRICT COURT OF
OKMULGEE COUNTY THE HONORABLE
PANDEE RAMIREZ, DISTRICT JUDGE
ATTORNEYS AT TRIAL
Neal Kirkpatrick
2021 S. Lewis Ave.
Tulsa, OK 74104
Counsel for Defendant
Carol Iski
District Attorney
Kendal Kelly
Asst. District Attorney
314 W. 7th St, 2nd Floor
Okmulgee OK 74447
Counsel for the State
ATTORNEYS ON APPEAL
Adam R. Banner
1900 NW Expressway Ste 601
Oklahoma City, OK 73118
Counsel for Appellant
Mike Hunter
Attorney General of Okla.
Theodore M. Peeper
Asst. Attorney General
313 NE 21st Street
Oklahoma City, OK 73105
Counsel for Appellee

App.5a
OPINION BY KUEHN, P.J.
ROWLAND, V.P.J.: CONCUR IN RESULTS
LUMPKIN, J.: CONCUR IN RESULTS
LEWIS, J.: SPECIALLY CONCUR
HUDSON, J.: SPECIALLY CONCUR

App.6a
ROWLAND, VICE PRESIDING JUDGE,
CONCURRING IN RESULTS:
I concur in the result of today’s opinion. However,
consistent with my separate opinion in Bosse v.
State, 2021 OK CR 3, ___ 3d ___ I would find that the
State lacked territorial jurisdiction and not subject
matter jurisdiction.

App.7a
LUMPKIN, JUDGE:
CONCURRING IN RESULTS:
Bound by my oath and the Federal-State relationships dictated by the U.S. Constitution, I must
at a minimum concur in the results of this opinion.
While our nation’s judicial structure requires me to
apply the majority opinion in the 5-4 decision of the
U.S. Supreme Court in McGirt v. Oklahoma, ___ U.S.
___, 140 S.Ct. 2452 (2020), I do so reluctantly. Upon
the first reading of the majority opinion in McGirt I
initially formed the belief that it was a result in
search of an opinion to support it. Then upon reading
the dissents by Chief Justice Roberts and Justice
Thomas I was forced to conclude the Majority had
totally failed to follow the Court’s own precedents, but
had cherry picked statutes and treaties, without giving
historical context to them. The Majority then proceeded
to do what an average citizen who had been fully
informed of the law and facts as set out in the
dissents would view as an exercise of raw judicial power
to reach a decision which contravened not only the
history leading to the disestablishment of the Indian
reservations in Oklahoma, but also willfully disregarded
and failed to apply the Court’s own precedents to the
issue at hand.
My quandary is one of ethics and morality. One
of the first things I was taught when I began my
service in the Marine Corps was that I had a duty to
follow lawful orders, and that same duty required
me to resist unlawful orders. Chief Justice Roberts’
scholarly and judicially penned dissent, actually
following the Court’s precedents and required analysis, vividly reveals the failure of the majority opinion

App.8a
to follow the rule of law and apply over a century of
precedent and history, and to accept the fact that no
Indian reservations remain in the State of Oklahoma.1
The result seems to be some form of “social justice”
created out of whole cloth rather than a continuation
of the solid precedents the Court has established
over the last 100 years or more.
The question I see presented is should I blindly
follow and apply the majority opinion or do I join
1 Senator Elmer Thomas, D-Oklahoma, was a member of the
Senate Committee on Indian Affairs. After hearing the Commissioner’s speech regarding the Indian Reorganization Act (IRA)
in 1934, Senator Thomas opined as follows:
I can hardly see where it (the IRA) could operate in a
State like mine where the Indians are all scattered
out among the whites and they have no reservation,
and they could not get them into a community without
you would go and buy land and put them on it. Then
they would be surrounded very likely with thickly
populated white section with whom they would trade
and associate. I just cannot get through my mind
how this bill can possibly be made to operate in a
State of thickly-settled population. (emphasis added).
John Collier, Commissioner of Indian Affairs, Memorandum of
Explanation (regarding S. 2755), p. 145, hearing before the United
States Senate Committee on Indian Affairs, February 27, 1934.
Senator Morris Sheppard, D-Texas, also on the Senate Committee on Indian Affairs, stated in response to the Commissioner’s speech that in Oklahoma, he did not think “we could look
forward to building up huge reservations such as we have granted
to the Indians in the past.” Id. at 157. In 1940, in the Foreword
to Felix S. Cohen, Handbook of Federal Indian Law (1942),
Secretary of the Interior Harold Ickes wrote in support of the IRA,
“[t]he continued application of the allotment laws, under which
Indian wards have lost more than two-thirds of their reservation
lands, while the costs of Federal administration of these lands
have steadily mounted, must be terminated.” (emphasis added).

App.9a
with Chief Justice Roberts and the dissenters in
McGirt and recognize “the emperor has no clothes” as
to the adherence to following the rule of law in the
application of the McGirt decision?
My oath and adherence to the Federal-State
relationship under the U.S. Constitution mandate
that I fulfill my duties and apply the edict of the
majority opinion in McGirt. However, I am not required
to do so blindly and without noting the flaws of the
opinion as set out in the dissents. Chief Justice Roberts
and Justice Thomas eloquently show the Majority’s
mischaracterization of Congress’s actions and history
with the Indian reservations. Their dissents further
demonstrate that at the time of Oklahoma Statehood
in 1907, all parties accepted the fact that Indian
reservations in the state had been disestablished and
no longer existed. I take this position to adhere to my
oath as a judge and lawyer without any disrespect to
our Federal-State structure. I simply believe that
when reasonable minds differ they must both be
reviewing the totality of the law and facts.

App.10a
CONCURRING OPINION OF JUSTICE LEWIS
LEWIS, JUDGE, SPECIALLY CONCURRING:
Based on my special writings in Bosse v. State,
2021 OK CR 3, ___ P.3d ___ and Hogner v. State,
2021 OK CR 4, ___ P.3d ___ I specially concur in the
decision to dismiss this case for the lack of state
jurisdiction.

App.11a

HUDSON, J., SPECIALLY CONCURS:
Today’s decision dismisses a first degree murder
conviction from the District Court of Okmulgee County
based on the Supreme Court’s decision in McGirt v.
Oklahoma, 140 S.Ct. 2452 (2020). This decision is
unquestionably correct as a matter of stare decisis
based on the Indian status of Appellant and the occurrence of the crime on the Creek Reservation. Under
McGirt, the State has no jurisdiction to prosecute
Appellant for the murder in this case. Instead, Appellant must be prosecuted in federal court. I therefore
as a matter of stare decisis fully concur in today’s
decision. Further, I maintain my previously expressed
views on the significance of McGirt, its far-reaching
impact on the criminal justice system in Oklahoma
and the need for a practical solution by Congress. See
Bosse v. State, 2021 OK CR 3, ___ P.3d ___ (Hudson,
J., Concur in Results); Hogner v. State, 2021 OK CR
4, ___ P.3d ___ (Hudson, J., Specially Concurs); and
Krafft v. State, No. F-2018-340 (Okl.Cr., Feb. 25, 2021)
(Hudson, J., Specially Concurs) (unpublished).

App.12a
DISTRICT COURT OF OKMULGEE COUNTY,
STATE OF OKLAHOMA, FINDINGS OF FACT
AND CONCLUSIONS OF LAW
(DECEMBER 8, 2020)
IN THE DISTRICT COURT OF THE OF TWENTYFOURTH JUDICIAL DISTRICT OF THE STATE
OF OKLAHOMA SITTING IN AND FOR
OKMULGEE COUNTY
________________________
RYAN CORTLAN JOHNSON,
Appellant/Defendant,
v.
THE STATE OF OKLAHOMA,
Appellee/Plaintiff.
________________________
Case Nos. CF-2017-316
F-2020-208
Before: Pandee RAMIREZ, District Judge.
FINDINGS OF FACT
AND CONCLUSIONS OF LAW
NOW on this 8th day of December, 2020, the
above-styled matter comes on before me, the undersigned Judge, pursuant to an order from the Oklahoma
Court of Criminal Appeals remanding this case for
an evidentiary hearing. The State is represented by
District Attorney Carol Iski and Assistant Attorney

App.13a
General Ted Pepper. The Appellant/Defendant is represented by Adam Banner of the Oklahoma Legal
Group. After examining the file herein and accepting
the stipulations by the parties, this Court finds no
evidentiary hearing is requested by the parties, and
based on the stipulations, makes the following findings:
Findings of Fact
1. The Court of Criminal Appeals has asked this
Court to make a determination as to Appellant/Defendant’s status as an Indian. This Court finds, by stipulation of the parties, that Ryan Cortlan Johnson has
1/32 Indian blood and has been a member of the
Chickasaw Nation since June 6, 2008.
2. This Court finds, by stipulation of the parties,
that the Chickasaw Nation is a federally recognized
Tribe.
3. The Court of Criminal Appeals has further
asked this Court to make a determination as to
whether the crime occurred in Indian Country. This
Court finds, by stipulation of the parties, that Ryan
Cortlan Johnson committed the crime at issue in this
case within Okmulgee County, which lies entirely
within the Muscogee (Creek) Reservation boundaries.

App.14a
Conclusions of Law
1. The Court finds, pursuant to McGirt v. Oklahoma, 140 S.Ct. 2452 (2020), that Ryan Cortlan Johnson
is an Indian for purposes of federal criminal jurisdiction.
2. The Court further finds the crime occurred
within the boundaries of the Creek Reservation.
Signed this 8th day of December, 2020.
/s/ Pandee Ramirez
District Judge

App.15a
COURT OF CRIMINAL APPEALS,
STATE OF OKLAHOMA, ORDER
REMANDING FOR EVIDENTIARY HEARING
(NOVEMBER 24, 2020)
IN THE COURT OF CRIMINAL APPEALS
OF THE STATE OF OKLAHOMA
________________________
RYAN CORTLAN JOHNSON,
Appellant,
v.
THE STATE OF OKLAHOMA,
Appellee.
________________________
No. F-2020-208
Before: David B. LEWIS, Presiding Judge.,
Dana KUEHN, Vice Presiding Judge.,
Gary L. LUMPKIN, Judge.,
Robert L. HUDSON, Judge.,
Scott ROWLAND, Judge.
ORDER GRANTING APPELLANT’S MOTION
FOR SUPPLEMENTATION OF RECORD AND
REQUEST TO REMAND FOR EVIDENTIARY
HEARING; REMANDING MATTER FOR
EVIDENTIARY HEARING; AND GRANTING
STATE’S MOTION TO STAY BRIEFING
SCHEDULE PENDING OUTCOME OF
EVIDENTIARY HEARING

App.16a
Appellant Johnson filed his brief in chief on September 11, 2020, appealing from his conviction in the
District Court of Okmulgee County, Case No. CF-2017316. Also on September 11, 2020, Appellant filed a
Motion for Supplementation of the Record and Request
to Remand for Evidentiary Hearing, challenging the
State’s subject-matter jurisdiction pursuant to the
Supreme Court’s decision in McGirt v. Oklahoma,
591 U.S. ___, 140 S.Ct. 2452 (2020). Appellant claims
that he is an enrolled member of the Chickasaw
Nation and that the crimes were committed on Creek
Nation tribal land. Appellant requests this Court
remand the matter for an evidentiary hearing on that
claim.
On November 3, 2020, the State of Oklahoma, by
and through Mike Hunter, Attorney General of the
State of Oklahoma, filed a motion to stay briefing
schedule. The State’s response brief was due November
10, 2020. Appellant has moved to supplement the
record on appeal with a Certificate of Degree of Indian
Blood of the Chickasaw Tribe, and a letter from the
Director of Tribal Government Services for the Chickasaw Nation stating that Appellant possesses 1/32
Chickasaw Indian Blood and is recognized as a Chickasaw Nation Citizen. In its Motion, the State does
not dispute that Appellant is an enrolled member of
the Chickasaw Nation, with a blood quantum of 1/32;
that he was an enrolled member at the time the crimes
were committed; and that the crimes occurred within
the boundaries of the Creek Nation.
Appellant claims that, due to the McGirt decision,
it must be determined whether he is an Indian who
committed a major crime on an Indian reservation.
The State requests briefing in this matter be stayed

App.17a
pending this Court’s ruling on Appellant’s motion to
supplement and his request for an evidentiary hearing.
Appellant’s Motion to Supplement the Record is
GRANTED for the narrow purpose of considering the
necessity for an evidentiary hearing on these claims.
IT IS THEREFORE THE ORDER OF THIS
COURT that Appellant’s Motion to Supplement the
Record and Request to Remand for Evidentiary Hearing
is GRANTED. The State’s motion to stay briefing
schedule pending the outcome of the evidentiary
hearing is GRANTED.
Appellant’s claim raises two separate questions: (a)
his Indian status and (b) whether the crime occurred
in the Creek Nation. These issues require fact-finding.
We therefore REMAND this case to the District Court
of Okmulgee County, for an evidentiary hearing to be
held within sixty (60) days from the date of this Order.
Recognizing the historical and specialized nature
of this remand for evidentiary hearing, we request
the Attorney General and District Attorney work in
coordination to effect uniformity and completeness in
the hearing process. Upon Appellant’s presentation
of prima facie evidence as to the Appellant’s legal
status as an Indian and as to the location of the
crime in Indian Country, the burden shifts to the
State to prove it has subject matter jurisdiction.
The hearing shall be transcribed, and the court
reporter shall file an original and two (2) certified copies
of the transcript within twenty (20) days after the
hearing is completed. The District Court shall then
make written findings of fact and conclusions of law, to
be submitted to this Court within twenty (20) days after

App.18a
the filing of the transcripts in the District Court. The
District Court shall address only the following issues.
First, the Appellant’s status as an Indian. The
District Court must determine whether (1) Appellant
has some Indian blood, and (2) is recognized as an
Indian by a tribe or the federal government.1
Second, whether the crime occurred within the
boundaries of the Creek Nation. In making this determination the District Court should consider any
evidence the parties provide, including but not limited
to treaties, statutes, maps, and/or testimony.
The District Court Clerk shall transmit the record
of the evidentiary hearing, the District Court’s findings of fact and conclusions of law, and any other
materials made a part of the record, to the Clerk of
this Court, and counsel for Appellant, within five (5)
days after the District Court has filed its findings of
fact and conclusions of law. Upon receipt thereof, the
Clerk of this Court shall promptly deliver a copy of
that record to the Attorney General. A supplemental
brief, addressing only those issues pertinent to the
evidentiary hearing and limited to twenty (20) pages
in length, may be filed by either party within twenty
(20) days after the District Court’s written findings
of fact and conclusions of law are filed in this Court.
Provided however, in the event the parties agree
as to what the evidence will show with regard to the
questions presented, they may enter into a written
stipulation setting forth those facts upon which they
agree and which answer the questions presented and
1 See United States v. Diaz, 679 F.3d 1183, 1187 (10th Cir. 2012);
United States v. Prentiss, 273 F.3d 1277, 1280-81 (10th Cir. 2001).

App.19a
provide the stipulation to the District Court. In this
event, no hearing on the questions presented is necessary. Transmission of the record regarding the matter,
the District Court’s findings of fact and conclusions of
law and supplemental briefing shall occur as set forth
above.
IT IS FURTHER ORDERED that the Clerk of
this Court shall transmit copies of the following, with
this Order, to the District Court of Okmulgee County:
Appellant’s Brief in Chief and his Motion to Supplement
the Record, each filed September 11, 2020; and the
State’s Motion to Stay Briefing Schedule and Response
to the Appellant’s Motion, filed November 3, 2020.
The Clerk of this Court is DIRECTED to transmit
a copy of this Order to the Court Clerk of Okmulgee
County; the District Court of Okmulgee County, the
Honorable Kenneth E. Adair, District Judge; Appellant,
the State of Oklahoma, and all counsel of record.

App.20a
IT IS SO ORDERED.
WITNESS OUR HANDS AND THE SEAL OF
THIS COURT this 24th day of November, 2020.
/s/ David B. Lewis
Presiding Judge
/s/ Dana Kuehn
Vice Presiding Judge
/s/ Gary L. Lumpkin
Judge
/s/ Robert L. Hudson
Judge
/s/ Scott Rowland
Judge

